AUGUST 4, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




        NASA INFRASTRUCTURE AND FACILITIES:
        ASSESSMENT OF DATA USED TO MANAGE
               REAL PROPERTY ASSETS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-024 (ASSIGNMENT NO. A-11-001-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

FERP         Facilities Engineering and Real Property Division
GAO          Government Accountability Office
GSA          General Services Administration
NPR          NASA Procedural Requirements
NTC          NASA Technical Capabilities
OIG          Office of Inspector General
O&M          Operations and Maintenance
RPMS         Real Property Management System
SPF          Space Power Facility


                                                                 REPORT NO. IG-11-024
AUGUST 4, 2011




                                                                                      OVERVIEW

      NASA INFRASTRUCTURE AND FACILITIES: ASSESSMENT OF
         DATA USED TO MANAGE REAL PROPERTY ASSETS

                                                                                        The Issue

  NASA’s real property holdings include approximately 5,000 buildings and structures
  such as wind tunnels, laboratories, launch pads, and test stands. In total, the assets
  occupy 44 million square feet and represent more than $26.4 billion in current
  replacement value. 1 However, 80 percent of NASA’s facilities are 40 or more years old
  and many are in degraded condition. Moreover, NASA is dealing with the challenge of
  its aging infrastructure at a time of large and growing budget deficits that are straining the
  resources of all Federal agencies. As discretionary funding continues to decline, NASA
  will be required to make more prudent decisions regarding its infrastructure. In addition,
  the issue of the Agency’s aging infrastructure has been identified by NASA, the Office of
  Inspector General (OIG), the Government Accountability Office (GAO), and Congress as
  a top challenge for nearly a decade. 2

  The NASA Authorization Act of 2010 directs NASA to examine its real property assets
  and, as appropriate, downsize to fit current and future missions and expected funding
  levels, “paying particular attention to identifying and removing unneeded or duplicative
  infrastructure.” 3 In order to make these types of strategic decisions, NASA needs a clear
  understanding of each asset’s utilization, condition, and relationship to the Agency’s
  mission.

  NASA uses a variety of data sources to manage its facilities. However, only one data
  source – the Real Property Management System (RPMS) – is designed to capture key
  information such as utilization, mission dependency, and condition consistently across all
  NASA Centers. The Agency uses the information in the RPMS to complete required
  reports such as annual reports of Federal real property to the General Services
  Administration (GSA). In addition, NASA uses the RPMS to integrate real property data
  with its financial system.


  1
      Information obtained from NASA’s Deferred Maintenance Assessment Report, October 1, 2010.
  2
      “NASA’s Real Property Management Plan,” November 2004; NASA OIG, “NASA’s Top Management
      and Performance Challenges,” November 2010; GAO, “High Risk Series: Federal Real Property:
      Progress Made Toward Addressing Problems, but Underlying Obstacles Continue to Hamper Reform”
      (GAO-07-349, April 2007); and Public Law 111-267, “NASA Authorization Act of 2010,” October 11,
      2010.
  3
      Public Law 111-267, “NASA Authorization Act of 2010,” October 11, 2010.



REPORT No. IG-11-024
                                                                                           OVERVIEW



     Having accurate and consistent data on its real property assets is crucial to NASA’s
     ability to manage its large and diverse assets as well as to maintain accountable and
     transparent Agency operations. Given the real property challenges facing the Agency
     and the importance of the RPMS to helping NASA meet these challenges, the OIG
     examined the accuracy of RPMS data.

     In the RPMS, NASA tracks a variety of data elements related to its facilities including
     location, operating status, value, operations and maintenance costs, utilization, mission
     dependency, and condition. Because utilization, mission dependency, and condition are
     the primary factors driving NASA’s decisions on whether to maintain, repair,
     consolidate, out-lease, sell, or demolish existing assets, we focused our review on these
     three data elements. To conduct our review, we obtained data from the RPMS for the
     period October 2009 through September 2010, and we conducted inspections of
     34 facilities at three NASA Centers: Kennedy Space Center; Glenn Research Center and
     Glenn’s Plum Brook Station; and Marshall Space Flight Center. See Appendix A for
     details of our scope and methodology. Appendix B provides additional details and
     photographs of some of the facilities we visited.

     Results

     We found that RPMS data relating to the three key elements of utilization, mission
     dependency, and condition to be unreliable metrics for evaluating NASA’s real property
     assets, largely because the Centers use inadequate processes to gather and update the
     information. For example, the Centers we visited had inadequate processes in place to
     accurately track the use of their facilities. Instead, they simply designated facilities as
     “Utilized” in the RPMS if they were aware that the facility was occupied or a NASA
     program reported the facility as active. However, based on our inspections, 15 of the 34
     facilities we visited were characterized as “Utilized” in the RPMS but actually were not
     in use, were no longer being used for the operations reported in the RPMS, or had been
     mothballed or demolished. For example, several of the test stands we inspected at
     Marshall were listed as “Utilized” in the RPMS even though they had not been used for
     more than 10 years.

     In addition, we found a lack of guidance and use of a ratings scale that fails to make
     meaningful distinctions between facilities limited the usefulness of the data intended to
     track the mission dependency of NASA facilities. Specifically, officials at the Centers
     we visited had widely differing opinions about what constituted a “mission.” For
     example, one official stated that he used the individual mission of the facility that he was
     rating, another official said he used the Center’s mission, and a third official stated that
     she used NASA’s overall missions. As a result, we found differences between the ratings
     applied to similar assets across the Centers. At the same time, the scale NASA uses to
     rate the criticality of facilities limits the Agency’s ability to make meaningful distinctions
     between facilities. For example, at the Centers we visited 85 percent of the facilities
     were rated as “Mission Dependent” or “Mission Critical.”



ii                                                                            REPORT NO. IG-11-024
OVERVIEW



  Finally, in tracking the physical condition of its facilities, NASA relies on only cursory
  visual inspections generally performed by small teams under tight deadlines. Given the
  cursory nature of the inspections, we question the accuracy of the information in the
  RPMS regarding the physical condition of NASA facilities. For example, we found that
  the condition data recorded in the RPMS for some of the facilities at Glenn’s Plum Brook
  Station failed to reflect their true conditions.

  While the RPMS is not the only information source NASA uses to manage its real
  property, it is the Agency’s only centralized database designed to track key real property
  information consistently across all Centers. Without accurate and consistent Agency-
  wide facilities data, NASA managers do not have the information necessary to effectively
  manage the Agency’s real property inventory. This hinders their ability to make strategic
  decisions regarding NASA’s real property assets, especially decisions involving choices
  between Centers. Furthermore, accurately reporting the utilization, mission dependency,
  and condition of its facilities – many of which require substantial operations and
  maintenance costs – to GSA, Congress, and other parties is crucial to maintaining
  transparent and accountable Agency operations. In our judgment, additional guidance
  from Headquarters to the Centers would improve the reliability of RPMS data.
  Moreover, until such steps are taken, it is important that NASA managers understand the
  limitations of RPMS data, manage those limitations accordingly, and disclose those
  limitations when using the data to support reports to NASA management, Congress, or
  other parties.

                                                                 Management Action

  Given NASA’s ongoing real property challenges and the importance of having reliable
  Agency-wide data to address these challenges, we recommended that the Associate
  Administrator for the Mission Support Directorate take a series of actions to help
  improve the accuracy of RPMS data. Our recommendations included establishing
  processes that accurately capture the utilization rates of facilities in the RPMS; revising
  NASA policy to include guidance for conducting mission dependency reviews, including
  developing a consistent definition of mission; and ensuring contractors are provided
  sufficient detail and direction for conducting assessments of the physical condition of
  NASA’s facilities.

  In response to a draft of this report, the Associate Administrator concurred with our
  recommendation to develop guidance for conducting mission dependency reviews and
  partially concurred with our recommendations to establish guidance and processes for
  capturing utilization rates and ensuring that contractors are provided with sufficient detail
  and direction for conducting facility condition assessments. He stated that while he
  planned to develop additional guidance in both areas, implementing those actions
  “may be constrained by limited resources – both people and funding.” The Associate
  Administrator also provided technical comments on the draft, and we made revisions to
  the report where appropriate.



REPORT NO. IG-11-024                                                                              iii
                                                                                       OVERVIEW



     We consider the Associate Administrator’s comments to be responsive to our
     recommendations and will close the recommendations upon completion and verification
     of the proposed corrective actions. Establishment of further guidance and processes for
     Centers to better understand and accurately capture the utilization, mission dependency,
     and condition of NASA’s facilities are positive steps that will provide greater insights
     when managing the Agency’s real property holdings. While we recognize that
     implementing these actions may be difficult in a time of reduced resources, we believe
     that any costs associated with improving the data will ultimately lead to greater cost
     savings in the future by enabling the Agency to more effectively manage its real property
     holdings.




iv                                                                        REPORT NO. IG-11-024
AUGUST 4, 2011




                                                         CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 6

  RESULTS
      Key Data in NASA’s Real Property Management System Is
        Unreliable ________________________________________ 7

  APPENDIX A
      Scope and Methodology _______________________________ 17
      Review of Internal Controls ____________________________ 18
      Prior Coverage ______________________________________ 18

  APPENDIX B
      Results of Facility Inspections __________________________ 19

  APPENDIX C
      Management Comments ______________________________ 34

  APPENDIX D
      Report Distribution ___________________________________ 37




REPORT NO. IG-11-024
AUGUST 4, 2011




                                                                                      INTRODUCTION


Background

  NASA is the ninth largest Federal Government property holder, with real property
  holdings of more than 100,000 acres and approximately 5,000 buildings and other
  structures encompassing more than 44 million square feet. NASA’s property holdings
  are located throughout the world and include commercial office buildings, warehouses,
  test stands, laboratories, wind tunnels, launch pads, antenna arrays, airfields, roads, and
  utilities. In total, the assets represent more than $26.4 billion in current replacement
  value. 4 However, 80 percent of NASA’s facilities are 40 or more years old and many are
  in need of repair and refurbishment. At the same time, the Agency is undergoing
  considerable changes in mission focus, with the Space Shuttle Program ending after 39
  years. Accordingly, NASA will have to make some difficult decisions to evolve toward
  the most efficient facility structure for its future. To address these challenges, NASA will
  require accurate and reliable data about its facilities.

  The Agency’s aging infrastructure has been identified by NASA, the Office of Inspector
  General (OIG), the Government Accountability Office (GAO), and Congress as a top
  challenge for the Agency for nearly a decade. 5 In the NASA Authorization Act of 2010,
  Congress directed the Agency to complete an Institutional Requirements Study
  examining its assets and identifying a strategy for moving forward. The Study is due to
  Congress by October 2011.

  NASA uses a variety of information sources to manage its facilities at both the
  Headquarters and Center levels. For example, the three Centers we visited – Kennedy
  Space Center, Marshall Space Flight Center, and Glenn Research Center – use databases
  to track the utilization of administrative office space for the purposes of managing and
  assigning office space to Center personnel. In addition, the Mission Support Directorate
  recently began development of the NASA Technical Capabilities (NTC) database to help
  track facility capabilities and workforce requirements. 6 While these databases provide or
  are expected to provide useful information to help the Centers manage their real property,
  currently NASA has only one system designed to capture key real property

  4
      Information obtained from NASA’s Deferred Maintenance Assessment Report, October 1, 2010.
  5
      “NASA’s Real Property Management Plan,” November 2004; NASA OIG, “NASA’s Top Management
      and Performance Challenges,” November 2010; GAO, “High Risk Series: Federal Real Property:
      Progress Made Toward Addressing Problems, but Underlying Obstacles Continue to Hamper Reform”
      (GAO-07-349, April 2007); and Public Law 111-267, “NASA Authorization Act of 2010,” October 11,
      2010.
  6
      The NTC database will only provide information on facilities that support certain technical capabilities,
      while the Real Property Management System (RPMS) provides key information on all NASA facilities.
      NASA officials expect NTC to be fully operable in 2012.



REPORT NO. IG-11-024                                                                                              1
                                                                                                   INTRODUCTION



    information including utilization, mission dependency, and condition consistently across
    all NASA Centers – the Real Property Management System (RPMS).

    Real Property Management System. NASA established the RPMS in October 2010 to
    integrate the Agency’s disparate real property data systems with its financial systems. 7
    The RPMS is an Agency-wide electronic data system for compiling, analyzing, and
    reporting on real property assets. NASA maintains real property data in the RPMS for
    assets with an acquisition cost of at least $5,000 that NASA owns, leases, or controls.
    The RPMS contains data elements on each asset, describing characteristics such as
    location, operating status, value, operations and maintenance (O&M) costs, utilization,
    mission dependency, and condition. The data also provides NASA decision makers with
    information regarding the size, type, sustainability, and efficiency of the Agency’s
    facilities. In addition, the Agency uses the database to fulfill Federal reporting
    requirements, such as the annual requirement to report Federal real property to the
    General Services Administration (GSA) for inclusion in the Federal Real Property
    Profile. NASA also uses the RPMS to integrate real property data with its financial
    system.

    NASA captures key information on both administrative and non-administrative facilities
    in the RPMS. Administrative facilities generally comprise office space while non-
    administrative facilities include processing facilities, wind tunnels, test stands,
    laboratories, and warehouses. 8 As shown in Figure 1, non-administrative facilities
    account for more than half of all NASA facilities. (Figure 1 also shows non-
    administrative facilities as a percentage of total facilities at each NASA Center.)




    7
        Prior to this integration, NASA maintained the Agency’s real property data in its Real Property Inventory
        system.
    8
        For our review, we categorized NASA’s facilities, including maintenance and production, operational,
        research development and testing, and supply, as “non-administrative facilities.”



2                                                                                         REPORT NO. IG-11-024
INTRODUCTION




      Figure 1. NASA’s Non-Administrative Facilities as of September 2010


         900

         800                                                                    5000

         700                                                                    4500

                                                                                4000
         600
                                                                                3500
                                                      60%
         500                                                                             4,905
                                                                                3000
                                    60%
         400                                                                    2500
                                                56%               53%                            2,838
                              72%         63%                                   2000             (58%)
         300                                                            55%
                  49%                                                           1500
         200                                                58%
                                                                                1000
                        43%                                                      500
         100
                                                                                    0
           0
                                                                                Number of Facilities

                                                                                Non-Administrative
                                                                                Facilities




  Essential Real Property Data Tracked within the RPMS. According to the NASA
  Real Property Asset Management Plan, NASA Centers, Mission Directorates, and the
  Facilities Engineering and Real Property Division (FERP) are to consider specific factors
  when determining whether to maintain, repair, consolidate, out-lease, sell, or demolish
  existing assets. 9 These factors are measured and tracked in the RPMS and include
  (1) utilization rate, (2) mission dependency status, and (3) physical condition (see
  Figure 2). For example, NASA managers may consider demolishing an asset that is not
  “Mission Dependent” and no longer in good physical condition. Conversely, if the asset
  is “Not Mission Dependent” but is in good condition, NASA may consider its lease or
  sale. Because of their importance to decision makers, we focused our review on the
  accuracy of these data elements in the RPMS database. Following is a detailed
  explanation of each element.

  9
      The NASA Real Property Asset Management Plan serves as NASA’s guide for promoting the efficient
      and economical use of the Agency’s real property holdings in accordance with Executive Order 13327
      and the Federal Real Property Council.



REPORT NO. IG-11-024                                                                                       3
                                                                                                     INTRODUCTION




         Figure 2. NASA Real Property Decision Process for Existing Assets




    Source: NASA Real Property Asset Management Plan, January 2008


    Utilization. Facilities may be designated in the RPMS as (1) Overutilized, (2) Utilized,
    (3) Underutilized, or (4) Not Utilized. NASA regulations require Centers to identify
    utilization rates for all real property assets annually. To determine utilization, officials
    review each asset to determine a percentage of space used in comparison with the total
    space available or a usage level based on a comparison with the number of days the
    facility is available. Based on a comparison of each asset’s usage with NASA and
    Federal thresholds, Center officials record the corresponding utilization rate in the
    RPMS.10 NASA guidance requires facility usage rates to exceed 50 percent. 11

    Mission Dependency. Mission dependency identifies the relative importance of real
    property assets in relation to NASA’s mission. NASA collaborated with the Navy and
    Coast Guard to develop a method for measuring mission dependency in 2001 and began
    collecting data in 2004. Mission dependency data is intended to help NASA managers
    10
         Federal thresholds and guidance are provided by GSA’s “2010 Guidance for Real Property Inventory
         Reporting,” October 25, 2010. NASA’s guidance is provided by NASA Procedural Requirements (NPR)
         8800.15B, “Real Estate Management Program,” June 21, 2010.
    11
         NASA also uses the data element “Facility Status” to track utilization in the RPMS. Specifically,
         NPR 8800.15B states that the space utilization of an “Active” facility is normally at least 50 percent or
         the usage level exceeds 50 percent of the number of days that it is available. An active facility is a
         facility that is being used by a current or future program or has an institutional requirement. We
         reviewed facilities designated as “Active” for our audit.



4                                                                                           REPORT NO. IG-11-024
INTRODUCTION



  better manage risks to programs and guide investment and divestiture decisions. NASA
  Centers are required to assess and update mission dependency scores for all assets every
  3 years. Asset assessments are based on the responses to two questions related to the
  asset’s impact on mission:

      •   How long could the functions supported by your infrastructure be stopped without
          adverse impact to the mission?

      •   If your facility was not functional, could you continue performing your mission
          by using another facility or by setting up temporary facilities?

  Each asset is given a mission dependency score on a scale of 1 to 100. Assets with
  mission dependency scores of 71 to 100 are considered “Mission Critical,” 10 to 70 are
  “Mission Dependent,” and 0 to 9 are “Not Mission Dependent.” “Mission Critical”
  assets are those assets that would compromise the Agency’s mission if unavailable.
  Assets that are “Not Mission Dependent” would have no effect on the Agency’s mission
  if unavailable. “Mission Dependent” assets are those assets that are neither “Mission
  Critical” nor “Not Mission Dependent.”

  Condition Data. Condition data provide information on the physical condition of the
  Agency’s real property assets at a specific point in time. To measure the condition of
  each asset, NASA hires contractors to perform annual condition assessment surveys of all
  facilities. For each asset, the contractor rates nine major systems: structure; exterior;
  roof; heating, ventilation, and air conditioning; electrical; plumbing; conveyance systems
  (e.g., elevators); interior; and equipment. NASA calculates a condition index score using
  a five-point scale for each asset using the contractor-provided ratings. According to the
  NASA Real Property Asset Management Plan, assets rated as a five are newer facilities
  with little or no repairs needed, assets rated lower than three are considered in poor
  condition, and any asset rated as a one should be condemned.

  Facilities Engineering and Real Property Division. FERP, a division of the Mission
  Support Directorate’s Office of Strategic Infrastructure, serves as the principal point of
  contact for NASA’s real property activities and policy. NASA Centers control the
  majority of the Agency’s real property and are responsible for managing their assets with
  guidance and oversight from FERP. NASA Centers’ Real Property Accountable Officers
  upload, maintain, and establish controls to ensure the accuracy of RPMS data for their
  respective Centers. Major asset management decisions are vetted through the Agency’s
  Operations Management Council that serves as NASA’s senior decision-making body for
  reviewing and approving capital investments.




REPORT NO. IG-11-024                                                                           5
                                                                                   INTRODUCTION



Objectives

    Our objective was to determine the accuracy of the information in the RPMS regarding
    facility utilization, mission dependency, and condition. We also reviewed internal
    controls as they relate to the overall objective. See Appendix A for details of the audit’s
    scope and methodology, our review of internal controls, and a list of prior coverage. See
    Appendix B for additional details and photographs of some of the facilities we inspected.




6                                                                          REPORT NO. IG-11-024
RESULTS




                                           KEY DATA IN NASA’S REAL PROPERTY
                                           MANAGEMENT SYSTEM IS UNRELIABLE

             We found that RPMS data relating to the three key elements of utilization, mission
             dependency, and condition to be unreliable metrics for evaluating NASA’s real
             property assets, largely because the Centers use inadequate processes to gather and
             update the information. Specifically, the Centers did not accurately record utilization
             data in the RPMS; mission dependency data lacked uniformity across Centers
             because of insufficient guidance about how to define “mission”; the Agency’s
             method for scoring mission dependency fails to prioritize among facilities; and
             condition ratings of the Agency’s facilities were based on cursory inspections,
             raising concerns about their accuracy. Without accurate facilities data, NASA
             managers do not have reliable information to manage the Agency’s real property
             inventory, which hinders their ability to make objective Agency-wide decisions
             regarding NASA’s real property assets.


Utilization of Facilities Not Accurately Recorded in the RPMS

  The three Centers we visited had inadequate processes in place to record accurately the
  utilization rates of their facilities in the RPMS and instead designated facilities as
  “Utilized” in the database regardless of their actual usage level. 12 As a result, the
  utilization data did not reflect actual conditions for 15 of the 34 facilities we inspected.
  Although characterized as “Utilized” in the database, these 15 facilities were not in use,
  no longer performed the operations reported in the RPMS, or had been mothballed or
  demolished. 13 For example, Plum Brook’s Heat Transfer Facility Test Building
  (Figure 3) was identified in the RPMS as “Utilized” even though it had been placed in
  mothball status in 2008.




  12
       We inspected 34 non-administrative facilities at three NASA Centers: 10 at Kennedy Space Center in
       Florida; 8 at Glenn Research Center in Cleveland, Ohio; 5 at Glenn’s Plum Brook Station in Sandusky,
       Ohio; and 11 at Marshall Space Flight Center in Huntsville, Alabama. NASA guidance requires that
       facility usage rates exceed 50 percent to be considered “Utilized.”
  13
       Mothballed facilities are facilities that have been taken out of use with appropriate maintenance measures
       to prevent deterioration of essential systems.



REPORT NO. IG-11-024                                                                                                7
                                                                                                                   RESULTS




    Figure 3. Heat Transfer Facility Test Building at                 Figure 4. Advanced Engine Test Facility
    Plum Brook                                                        at Marshall




     Source: Glenn’s Plum Brook Station Intranet Building
     List




                                                                      Source: Marshall’s Facilities Geographical
                                                                      Information System


    Similarly, several of the test stands we inspected at Marshall were listed as “Utilized” in
    the RPMS even though they had not been used for more than 10 years (Figure 4 shows
    one of the test stands we inspected). In addition, a test facility at Glenn was listed as
    “Utilized,” but we found that it was not currently in use and in fact had not performed the
    operations reported in the RPMS for more than 10 years. In another example, a
    warehouse at Plum Brook listed as “Utilized” had been demolished. (See Table 1 for the
    results of our review, and Appendix B for other photographs and additional details of
    these facilities.)

      Table 1. Kennedy, Glenn, and Marshall Utilization Rates Not Accurately Characterized in RPMS
                                                     Square                             O&M         RPMS          OIG
    Center        Facility         Description        Feet            Value             Costs*       Rate      Assessment
                Boresight
                                 Communications                                                                   Not
    Kennedy     Control                                1,200       $ 1,489,985      $    44,080     Utilized
                                 test facility                                                                   Utilized
                Building
                                 Hazardous
                                 payload                                                                          Not
    Kennedy     PHSF                                  18,813        19,885,907          419,517     Utilized
                                 processing                                                                      Utilized
                                 facility
                                 Nuclear
                                                                                                                  Not
    Kennedy     RTG              Processing            3,788         1,847,669           51,843     Utilized
                                                                                                                 Utilized
                                 Facility
    * O&M costs refer to those costs that NASA incurs on an annual basis to operate and maintain a particular facility.




8                                                                                                 REPORT NO. IG-11-024
RESULTS



                 Table 1. Utilization Rates Not Accurately Characterized in RPMS (continued)
                                                     Square                            O&M          RPMS          OIG
   Center          Facility        Description        Feet           Value             Costs*        Rate      Assessment
                 B Control
   Glenn         and Data        Control center       11,508     $ 4,919,098       $    33,426      Utilized   Not Utilized
                 Building
                 HTF Test        Propulsion
   Glenn                                                6,082      38,464,125           31,851      Utilized   Not Utilized
                 Building        systems testing
                 PSL Engine
                                 Propulsion
   Glenn         Test                                 45,192       45,697,087          264,676      Utilized   Not Utilized
                                 systems testing
                 Building
                 Research
                                 Small propulsion
   Glenn         Combustion                           17,092        9,877,158          132,850      Utilized   Not Utilized
                                 systems testing
                 Lab
                 SPF Test        Space simulation
   Glenn                                             139,358      187,195,405       1,918,589       Utilized   Not Utilized
                 Building        testing
                 Vertical Lift
                                                                                                                Different
   Glenn         Engine Test     Fuel cell testing     N/A          3,014,580            1,286      Utilized
                                                                                                                Function
                 Facility
                 Warehouse
   Glenn                         Storage              10,950        1,483,582                   0   Utilized   Demolished
                 (9205)
                 Advanced
   Marshall      Engine Test     Test stand            N/A        120,497,537          273,439      Utilized   Not Utilized
                 Facility
                 Propulsion
   Marshall      & Structural    Test stand            N/A         32,707,706          167,905      Utilized   Not Utilized
                 Test Facility
                 Structural
   Marshall      Dynamic         Test stand            N/A         60,812,961          118,596      Utilized   Not Utilized
                 Test Facility
                 Test Facility
   Marshall                      Test stand            N/A          8,617,134           51,099      Utilized   Not Utilized
                 300
                 Test Facility
   Marshall                      Test stand            N/A         12,092,502           35,763      Utilized   Not Utilized
                 500
   * O&M costs refer to those costs that NASA incurs on an annual basis to operate and maintain a particular facility.



  In our judgment, the problems with the utilization data in the RPMS were the result of
  inadequate processes used by the Centers to track the data in accordance with NASA
  policy. Specifically, Real Property officials from the three Centers we visited told us that
  they did not have processes in place to calculate usage rates or conduct annual
  inspections to ensure data accuracy. 14 Rather, they simply designated facilities as
  “Utilized” if they were aware that the facilities were occupied or a NASA program
  reported the facilities as active. However, according to NASA policy, Centers should
  perform annual utilization reviews of all real property under their cognizance. 15 During
  these reviews, Center officials are supposed to identify a usage rate based on either the

  14
       The three Centers we visited – Kennedy, Marshall, and Glenn – used Center-level databases to track the
       utilization of administrative office space for the purposes of managing and assigning office space to
       Center personnel. While these systems enabled the Centers to track utilization data on their
       administrative facilities, this data was not used to calculate utilization rates in the RPMS.
  15
       NPR 8800.15B, “Real Estate Management Program,” June 21, 2010.



REPORT NO. IG-11-024                                                                                                          9
                                                                                                              RESULTS



     percentage of space in use compared with the total space available, or based on the
     number of days the facility is available compared with the number of days it is used.
     Based on a comparison of each facility’s usage percentage with Federal thresholds,
     Center officials should report a corresponding utilization rate in the RPMS. To be
     considered “Utilized,” a facility’s usage rate must exceed 50 percent. 16

     FERP officials contend that the utilization criteria as outlined in NASA policy is not
     intended to define utilization rates for every type of facility. They argue that determining
     utilization rates for non-administrative facilities based on annual usage as outlined in
     current NASA policy is problematic because the data do not account for the likelihood of
     future use. 17 As such, they consider non-administrative facilities with critical capabilities
     as “Utilized” even if they are only in use for minimal portions of a year. We
     acknowledge that many of NASA’s non-administrative facilities have highly specialized
     capabilities that would be expensive to replace and agree that the Agency should consider
     the likelihood of future use as well as replacement cost in making decisions regarding
     non-administrative facilities. Nevertheless, in our judgment accurately tracking and
     reporting annual utilization rates is a fundamental aspect of real property management
     and transparent Government operations. Without this information, NASA is missing key
     data necessary to inform its property management decisions.

     Without accurate utilization data, NASA is unable to accurately access the costs
     associated with maintaining under- or non-utilized facilities. During our review, we
     found 15 facilities with annual O&M costs of approximately $3.5 million that NASA was
     not fully utilizing. For example, the Space Power Facility (SPF) Test Building at Plum
     Brook Station (Figure 5), which has the capability to simulate the space environment, is
     reported in the RPMS as “Utilized.” However, the facility – which requires nearly
     $2 million in annual O&M costs – has not been used since 2009. Similarly, several test
     stands at Marshall that require between $35,763 and $273,439 in annual O&M costs but
     have not been used by NASA for more than 10 years are reported in the RPMS as
     “Utilized.”




     16
          NASA also uses the data element “Facility Status” to track utilization in the RPMS. Specifically,
          NPR 8800.15B states that the space utilization of an “Active” facility is normally at least 50 percent or
          the usage level exceeds 50 percent of the number of days that it is available. An active facility is a
          facility that is being used by a current or future program or has an institutional requirement. We
          reviewed facilities designated as “Active” for our audit. Our review found that in the cases where
          facilities were inaccurately rated as “Utilized” in the RPMS, they were also inaccurately designated as
          “Active.” As such, we do not make a distinction between “Active” and “Utilized” in the report.
     17
          For our review, we categorized NASA’s facilities, including maintenance and production, operational,
          research development and testing, and supply, as “non-administrative facilities.”



10                                                                                           REPORT NO. IG-11-024
RESULTS




  Figure 5. SPF Test Building




  Source: Glenn’s Plum Brook Station Intranet Building List


Lack of Guidance and Imprecise Rating Scale Limit the Usefulness
  of Mission Dependency Data

  Mission dependency data are designed to identify the relative importance of facilities in
  terms of their role in accomplishing the Agency’s mission. However, at the three Centers
  we visited we found weaknesses in the methods used to determine mission dependency
  that limit the usefulness of the data. First, we found no uniformity in the definition of
  “mission” among the Centers when interpreting a facility’s mission dependency score.
  For example, one official stated that he used the individual mission of the facility that he
  was rating, another official stated that he used the Center’s mission, while a third official
  stated that she based her assessment on NASA’s overall missions. As a result, we found
  differences between the ratings applied to similar assets across the three Centers. For
  example, on a scale of 1 to 100, a Child Development Center at Kennedy was rated a 24,
  25 at Marshall, and 48 at Glenn. 18

  Center officials said that NASA’s FERP did not provide sufficient guidance on how
  Centers should measure and define mission when measuring mission dependency. Center
  officials explained that FERP provided only limited guidance, and consequently the
  officials responsible for conducting the reviews developed varying interpretations of what
  constituted a mission. FERP officials acknowledged the problem and said that they also
  found inconsistent mission dependency data across the Agency as a result of the varying
  interpretations of the term “mission.” FERP officials explained that they were currently

  18
       Assets with mission dependency scores of 71 to 100 are considered “Mission Critical,” 10 to 70 are
       “Mission Dependent,” and 0 to 9 are “Not Mission Dependent.”



REPORT NO. IG-11-024                                                                                        11
                                                                                                                    RESULTS



     refining the definition of mission so that it better aligns with NASA’s strategic missions
     and programs. In addition, they agree that additional guidance to the Centers would
     improve the consistency of RPMS data.

     A second weakness of RPMS mission dependency data is that the scale NASA uses to
     rate the criticality of facilities is imprecise and limits meaningful prioritization among
     facilities. NASA’s scale considers facilities with mission dependency ratings of 71 to
     100 as “Mission Critical” and 10 to 70 as “Mission Dependent.” Only those facilities
     rated from 0 to 9 are considered “Not Mission Dependent.” Overall, at the three Centers
     we visited, 15 percent of the facilities received a 0–9 rating and therefore are
     characterized as “Not Mission Dependent.” We found that under NASA’s rating system,
     even facilities with relatively low ratings are designated as “Mission Dependent” in the
     RPMS. FERP officials said that an independent assessment conducted by the Navy in
     2006 noted that the scale to assess a facility as “Not Mission Dependent” should more
     appropriately range from 0 to 20. 19 Using this scale, 23 percent, or an additional 153
     facilities at the three Centers we visited, would be considered “Not Mission Dependent.”
     This included a variety of facilities including test facilities, laboratories, and warehouses.

     While many NASA facilities clearly are important to the Agency’s mission, scoring more
     than 85 percent as “Mission Dependent” or “Mission Critical” devalues the data element
     as a tool to evaluate the extent to which NASA’s facilities within and across Centers are
     linked to specific NASA missions. Furthermore, by using a rating system with such a
     broad range, NASA is furthering the perception that the Agency is dependent on nearly
     all of its facilities and would suffer adverse impacts to its overall mission if the facilities
     were unavailable. Given the shortcomings in the current rating system, it is difficult to
     assess which of NASA’s facilities across the Agency are truly “Mission Dependent.”
     This in turn hampers NASA’s ability to make appropriate strategic decisions regarding
     the disposition of its real property assets.


Accuracy of Facility Condition Ratings Questionable Due to
  Cursory Inspections

     NASA relies on cursory inspections to assess the physical condition of its facilities.
     According to NASA’s Deferred Maintenance Assessment Report, the condition of a
     facility should be based on inspections of nine components such as structural integrity
     and heating and electrical systems. 20 However, the assessments generally consist of
     cursory visual inspections performed by a few people over a very brief period. For
     example, to determine the condition ratings of Kennedy’s 1,154 facilities for fiscal year
     2010, a contractor employed five personnel for 2 weeks to perform all the inspections. 21
     19
          The Navy, Coast Guard, and NASA collaborated to develop the Mission Dependency Index in 2001.
     20
          For each asset, the contractor rates the asset’s structure, exterior, roof, heating ventilation and air
          conditioning, electric, plumbing, conveyance systems (e.g., elevators), interior, and equipment.
     21
          To assess Glenn and Plum Brook’s 405 facilities, a contractor employed four personnel for 5 days. At
          Marshall, a contractor employed four personnel for 20 hours total to assess 284 facilities.


12                                                                                               REPORT NO. IG-11-024
RESULTS



  In addition, according to Center officials, some of the assessments were limited to
  drive-by visual inspections. Given the cursory nature of the inspections, we question the
  accuracy of the condition data recorded in the RPMS. Inaccurate condition data limits
  NASA’s ability to make appropriate decisions on whether to keep and maintain particular
  facilities.

  As one example, we found that the condition data recorded in the RPMS for some of the
  facilities at Glenn’s Plum Brook Station failed to reflect their true condition. Some
  facilities showed excessive wear and tear that would require significant repairs, yet
  NASA rated them in the RPMS as being in “Fair” to “Good” condition. Specifically,
  NASA rated the condition of a warehouse at Plum Brook as “Fair” even though the
  facility is 67 years old and had clear signs of structural degradation including portions of
  the roof caving in (see Figure 6). 22 We also noted several other warehouses at Plum
  Brook that were in similarly deteriorating condition, yet were rated as being in “Good”
  condition in the RPMS. For example, the 99 Igloos – World War II ammunition depots
  converted by Plum Brook into storage facilities – were all rated as a four on the five-point
  condition index scale indicating that they are in “Good” condition. However, the
  structures are 68 years old and most are in degraded condition (see Figure 7). According
  to the facility manager, most have also experienced problems with moisture and rodent
  infestations.

  Figure 6. Warehouse at Plum Brook Station Rated in “Fair” Condition




  Source: NASA OIG photograph (March 2011)



  22
       Following our review, Glenn officials scheduled the warehouse for demolish in FY 2014.



REPORT NO. IG-11-024                                                                             13
                                                                                          RESULTS



      Figure 7. Igloos at Plum Brook Station Rated in “Good” Condition




      Source: Glenn photographs (July 2010)



Conclusion

     Given the extent and age of NASA’s facilities, and particularly in this time of large and
     growing national budget deficits, it is imperative that NASA managers have reliable data
     with which to manage the Agency’s real property assets. The RPMS is currently the only
     database designed to capture real property information across the entire Agency. Without
     accurate and consistent Agency-wide facilities data, NASA managers are hindered in
     their ability to make strategic decisions regarding NASA’s real property assets, especially
     decisions involving trade-offs between facilities at different Centers. In addition,
     accurately reporting the utilization, mission dependency, and condition of its facilities –
     many of which require substantial O&M costs – to GSA, Congress, and other parties is
     crucial to maintaining transparent and accountable Agency operations. For these reasons,
     we encourage NASA to improve the accuracy of its real property data. In our judgment,
     additional guidance from FERP to the Centers would help improve the reliability of the
     data.

     Until steps are taken to improve the accuracy of the data, it is important that NASA
     managers understand, manage, and disclose the limitations of the RPMS database when
     using the data to support reports to Congress and the public.




14                                                                          REPORT NO. IG-11-024
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Given NASA’s ongoing real property challenges and the importance of having reliable
Agency-wide data to address these challenges, we recommended that the Associate
Administrator for the Mission Support Directorate direct the Facilities Engineering and Real
Property Division to take the following actions to help improve the accuracy of RPMS data.

Recommendation 1. Establish processes for the Centers that accurately capture the
utilization rates of facilities in the RPMS. These processes should include, at a minimum,
the use of quantitative methods to calculate utilization rates and annual inspections of
facilities.

  Management’s Response. The Associate Administrator for the Mission Support
  Directorate partially concurred with our recommendation, stating that he will establish
  further guidance and processes for Centers to better understand utilization and accurately
  capture the utilization rates of NASA’s facilities. However, he stated that the
  implementation of any new processes “may be problematic due to limited resources –
  both people and funding.” In addition, he stated that the utilization of highly technical
  facilities, such as test stands and wind tunnels, is difficult to capture because of the
  intermittent use and requirements by programs and missions. Nonetheless, he noted that
  NASA is currently awaiting guidance from the Office of Management and Budget and
  GSA, as well as reviewing other metrics, for better determining the utilization of
  technical facilities.

  Evaluation of Management’s Response. We consider management’s comments
  responsive and will close the recommendation upon completion and verification of the
  proposed corrective actions. In our judgment, development of further guidance for the
  Centers is a positive step toward improving the accuracy of utilization data. While we
  recognize that implementing new processes may be difficult because of reduced
  resources, the costs of developing further guidance should be minor. In addition, we
  believe that any costs associated with improving the data will ultimately lead to greater
  cost savings in the future by enabling the Agency to more effectively manage its real
  property holdings.

Recommendation 2. Revise NASA policy to include guidance for conducting mission
dependency reviews, including developing a consistent definition of the mission reviewers
should consider when performing the reviews.

  Management’s Response. The Associate Administrator concurred, stating that he will
  revise NASA policy to include guidance for conducting mission dependency reviews.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive; therefore, the recommendation is resolved and will be closed upon
  verification and completion of the proposed corrective actions.



REPORT NO. IG-11-024                                                                           15
                                                                                         RESULTS



Recommendation 3. Reassess and revise, as appropriate, contracts for condition
assessments to provide contractors sufficient detail and direction to ensure that the Agency
is provided comprehensive assessments of the physical condition of its facilities.

     Management’s Response. The Associate Administrator partially concurred with our
     recommendation, stating that he will reassess and revise, as appropriate, contracts for
     condition assessments. However, he stated that implementing additional contract
     requirements will be difficult due to ongoing cuts to NASA’s budget. He also noted that
     although errors were found in the data relating to the contractors’ assessments of the
     condition of Agency assets, these assessments are the most cost-effective method of
     providing NASA with the most relevant information without incurring excessive contract
     costs.

     Evaluation of Management’s Response. We consider management’s comments
     responsive and will close the recommendation upon completion and verification of the
     proposed corrective actions. In our judgment, reassessing and revising the contracts for
     condition assessments are positive steps toward improving the quality of condition data.
     While we recognize that implementing these actions may be difficult due to reduced
     resources, we believe that any costs associated with improving the data will ultimately
     lead to greater cost savings in the future by enabling the Agency to more effectively
     manage its real property holdings.




16                                                                         REPORT NO. IG-11-024
APPENDIXES




                                                                           APPENDIX A


Scope and Methodology

  We performed this audit from October 2010 through July 2011 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives. Our announced objectives included determining whether NASA’s
  real property assets were supported by verifiable program and mission requirements.
  However, we did not pursue that objective because of the relevance of our findings
  concerning RPMS data.

  We reviewed Federal, NASA, and Center policies and regulations to determine the
  requirements and criteria for assessing real property assets’ utilization, mission
  dependency, and condition. The documents we reviewed included Executive Order
  13327, February 6, 2004; “Federal Real Property Asset Management,” March 2007; the
  Federal Real Property Council’s “2010 Guidance for Real Property Inventory Reporting,”
  October 25, 2010; NPR 8800.15B, “Real Estate Management Program,” June 21, 2010;
  NASA Policy Directive 8800.14D, “Policy for Real Estate Management (Revalidated,
  October 14, 2009)”; and various Center regulations and plans, such as Kennedy NPR
  8830.1, “Facilities Asset Management Procedural Requirements,” March 28, 2011, and
  “NASA’s Real Property Management Plan,” November 2004.

  We also interviewed FERP and Center officials to determine how data contained in the
  RPMS on utilization, mission dependency, and condition were assessed, reported, and
  verified. We judgmentally selected facilities at Kennedy, Glenn, and Marshall for
  detailed review. We chose those three Centers because each Center represented one of
  NASA’s primary mission themes: Science and Aeronautics, Space Operations, and
  Mission Support. We performed limited validation testing for utilization and mission
  dependency data elements recorded for the facilities we reviewed. Our validation testing
  for RPMS utilization rates included visually inspecting facilities, reviewing facility logs,
  and discussions with facility managers. To validate mission dependency data, we
  reviewed the RPMS for anomalies in mission criticality ratings and held discussions with
  each Center’s mission dependency expert. To assess the validity of RPMS condition
  data, we conducted visual inspections of facilities’ external structure.




REPORT NO. IG-11-024                                                                             17
                                                                                        APPENDIX A



Computer-Processed Data

     This report provides our assessment of the data contained in the RPMS, a NASA
     Enterprise System maintained in SAP. We obtained data for the period October 2009
     through September 2010 from the RPMS, and we focused on the utilization, mission
     dependency, and condition data elements. As discussed in this report, we found that the
     data was not reliable. Although the number of facilities at the three Centers we visited
     also came from the RPMS, the accuracy of that data would not affect our findings or
     conclusions.


Review of Internal Controls

     We reviewed and evaluated the internal controls associated with collecting and reporting
     data for inclusion in the RPMS. As discussed in this report, the policies and procedures
     governing data collection and reporting were not sufficient to ensure the reliability and
     validity of that data. Our recommendations, if implemented, should correct the identified
     weaknesses.


Prior Coverage

     During the last 5 years, the NASA OIG, the GAO, and the National Research Council
     have issued three reports of particular relevance to the subject of this report. Unrestricted
     reports can be accessed over the Internet at http://oig.nasa.gov/audits/reports/FY11
     (NASA OIG), http://www.gao.gov (GAO), and http://www.nap.edu/ (National Research
     Council).

     NASA Office of Inspector General

     “Audit of NASA’s Facilities Maintenance” (IG-11-015, March 2, 2011)

     Government Accountability Office

     “Federal Real Property: An Update on High Risk Issues” (GAO-09-801T, July 15, 2009)

     National Research Council

     “Capabilities for the Future: An Assessment of NASA Laboratories for Basic Research”
     (2010)




18                                                                           REPORT NO. IG-11-024
APPENDIX B




                                                               RESULTS OF FACILITY
                                                                      INSPECTIONS

  For our review, we inspected 34 non-administrative facilities at three NASA Centers:
  Kennedy Space Center in Florida; Glenn Research Center in Cleveland and Glenn’s Plum
  Brook Station in Sandusky, Ohio; and Marshall Space Flight Center in Huntsville,
  Alabama. During these inspections, we found 15 facilities that NASA had inaccurately
  characterized as “Utilized” in the RPMS. Despite being characterized as “Utilized” in the
  database, the facilities were not in use, no longer performed the same operations, had
  been mothballed, or had been demolished. NASA guidance requires facility usage rates
  to exceed 50 percent for the facility to be considered “Utilized.” Below we describe each
  facility and assess its use.

  Figure B-1. Payload Hazardous Services Facility (PHSF)




  Center:                    Kennedy Space Center, Florida
  Date Built:                1986
  Description:               The PHSF is a payload processing facility used to process both
                             hazardous and nonhazardous payloads.
  RPMS Utilization Rate:     “Utilized”
  NASA OIG Assessment:       NASA listed the PHSF as “Utilized” in the RPMS for the 2010
                             reporting period. However, we determined that NASA did not use
                             the facility in 2010. Rather, it was used last in July 2009 to process
                             parts for the Hubble Space Telescope Servicing Mission. NASA
                             plans to use the facility to process the Mars Science Laboratory in
                             2011.



REPORT NO. IG-11-024                                                                                  19
                                                                                       APPENDIX B



     Figure B-2. Radioisotopes Thermoelectric Generator (RTG)




     Center Location:              Kennedy Space Center, Florida
     Date Built:                   1964
     Description:                  The RTG is a processing facility for loading radioisotopes used
                                   to power deep space missions.
     RPMS Utilization Rate:        “Utilized”
     NASA OIG Assessment:          NASA listed the RTG as “Utilized” in the RPMS for 2010.
                                   However, we determined that NASA did not use the facility in
                                   2010, and its last significant use was to process the New
                                   Horizons spacecraft in 2005. NASA plans to use the facility
                                   to process the Mars Science Laboratory in 2011.




20                                                                          REPORT NO. IG-11-024
APPENDIX B



  Figure B-3. Boresight Control Building




  Center Location:           Kennedy Space Center, Florida
  Date Built:                1964
  Description:               The Boresight Control Building is a telemetry, tracking, and
                             command support facility for testing the Space Shuttle’s antennas.
  RPMS Utilization Rate:     “Utilized”
  NASA OIG Assessment:       NASA listed the Boresight Control Building as “Utilized” in the
                             RPMS for 2010. However, we determined that NASA did not use
                             the facility in 2010, and its last significant use was not known.
                             NASA did not have any planned future uses.




REPORT NO. IG-11-024                                                                              21
                                                                                         APPENDIX B



     Figure B-4. B Control and Data Building




     Center Location:           Plum Brook Station, OH
     Date Built:                1960
     Description:               The B Control and Data Building is the control and data collection
                                center for NASA’s B-2 Spacecraft Propulsion Research Facility,
                                which tests full-scale upper-stage vehicles and rocket engines
                                under simulated high-altitude conditions.
     RPMS Utilization Rate:     “Utilized”
     NASA OIG Assessment:       NASA listed the B Control and Data building as “Utilized” in the
                                RPMS for 2010. Although the facility is currently undergoing
                                modifications, we determined that NASA did not use the facility in
                                2010, and it was last used to test tracer packages for a university
                                between 2005 and 2006. NASA plans to use the facility for future
                                J2X engine tests.




22                                                                           REPORT NO. IG-11-024
APPENDIX B



  Figure B-5. Heat Transfer Facility (HTF) Test Building




  Center Location:           Plum Brook Station, OH
  Date Built:                1967
  Description:               The HTF tests large-scale propulsion systems at hypersonic
                             conditions.
  RPMS Utilization Rate:     “Utilized”
  NASA OIG Assessment:       NASA listed HTF as “Utilized” in the RPMS for 2010. However,
                             we determined that NASA mothballed the facility 3 years ago, and
                             its last significant use was in 2002. NASA did not have any
                             planned future uses.




REPORT NO. IG-11-024                                                                            23
                                                                                        APPENDIX B



     Figure B-6. Propulsion Systems Laboratory (PSL) Engine Test Building




     Center Location:           Glenn Research Center, Ohio
     Date Built:                1969
     Description:               The PSL Engine Test Building is a full-scale engine test facility
                                that can simulate flight conditions.
     RPMS Utilization Rate:     “Utilized”
     NASA OIG Assessment:       NASA listed PSL as “Utilized” in the RPMSfor 2010. Although a
                                portion of the facility was undergoing modifications, we
                                determined that NASA only used the facility for testing 23 percent
                                of the time in 2010. NASA expects the utilization rate to increase
                                following the modifications.




24                                                                           REPORT NO. IG-11-024
APPENDIX B



  Figure B-7. Research Combustion Laboratory




  Center Location:         Glenn Research Center, Ohio
  Date Built:              1945
  Description:             The Research Combustion Lab consists of a suite of test cells to
                           test advanced propulsion systems, propellant, and ignition systems.
  RPMS Utilization Rate:   “Utilized”
  NASA OIG Assessment:     NASA listed the Research Combustion Lab as “Utilized” in the
                           RPMS for 2010. However, we determined that NASA only used
                           the facility for testing 17 percent of the time in 2010. NASA did
                           not have any planned future uses.




REPORT NO. IG-11-024                                                                             25
                                                                                           APPENDIX B



     Figure B-8. Space Power Facility (SPF) Test Building




     Center Location:           Plum Brook Station, Ohio
     Date Built:                1968
     Description:               The SPF Test Building is the world’s largest space environmental
                                simulation chamber and had the capability to test large spacecraft in
                                a thermal vacuum environment.
     RPMS Utilization Rate:     “Utilized”
     NASA OIG Assessment:       NASA listed the SPF as “Utilized” in the RPMS for 2010.
                                Although the facility is currently undergoing modifications to add
                                additional capabilities, we determined that NASA did not use the
                                facility in 2010, and it was last used sometime in 2009. NASA
                                plans to use the facility for future Crew Exploration Vehicle tests.




26                                                                             REPORT NO. IG-11-024
APPENDIX B



  Figure B-9. Vertical Lift Engine Test Facility




  Center Location:             Glenn Research Center, Ohio
  Date Built:                  1973
  Description:                 Even though it is still known as the Vertical Lift Engine Test
                               Facility, it is no longer used for that purpose and instead had been
                               used by Glenn during some part of the past 10 years to conduct
                               fuel cell tests.
  RPMS Utilization Rate:       “Utilized”
  NASA OIG Assessment:         NASA listed The Vertical Lift Engine Test Facility as “Utilized” in
                               the RPMS for 2010. However, we determined that NASA no
                               longer used the facility for vertical lift engine testing, and it was
                               not used for any other purpose in 2010. NASA plans to use the
                               facility for a short-term test in 2011 and then demolish it sometime
                               in 2013.




REPORT NO. IG-11-024                                                                                   27
                                                                                     APPENDIX B



     Figure B-10. General Warehouse (Demolished) Site




     Center Location:          Plum Brook Station, Ohio
     Date Built:               1943
     Description:              General warehouse
     RPMS Utilization Rate:    “Utilized”
     NASA OIG Assessment:      NASA listed this general warehouse at Plum Brook as “Utilized”
                               in the RPMS for 2010. However, we determined that the facility
                               was demolished sometime in 2010.




28                                                                        REPORT NO. IG-11-024
APPENDIX B



  Figure B-11. Advanced Engine Test Facility




  Center Location:           Marshall Space Flight Center, Alabama
  Date Built:                1965
  Description:               The Advanced Engine Test Facility was built to test the first stage
                             of the Saturn V rocket.
  RPMS Utilization Rate:     “Utilized”
  NASA OIG Assessment:       NASA listed the Advanced Engine Test Facility as “Utilized” in
                             the RPMS for 2010. However, we determined that NASA did not
                             use the facility in 2010, and in fact was last used to test a Russian-
                             built rocket engine in 1998. NASA plans to mothball the facility
                             some time in 2011 or 2012.




REPORT NO. IG-11-024                                                                                  29
                                                                                           APPENDIX B



     Figure B-12. Propulsion and Structural Test Facility




     Center Location:           Marshall Space Flight Center, Alabama
     Date Built:                1957
     Description:               The Propulsion and Structural Test Facility was built to test Saturn I
                                rockets.
     RPMS Utilization Rate:     “Utilized”
     NASA OIG Assessment:       NASA listed the Propulsion and Structural Test Facility as
                                “Utilized” in the RPMS for 2010. However, we determined that
                                NASA did not use the facility in 2010, and it was last used in the
                                1990s for testing Space Shuttle Solid Rocket Boosters. NASA
                                plans to mothball the facility some time in 2011 or 2012.




30                                                                             REPORT NO. IG-11-024
APPENDIX B



  Figure B-13. Structural Dynamic Test Facility




  Center Location:           Marshall Space Flight Center, Alabama
  Date Built:                1964
  Description:               The Structural Dynamic Test Facility was built for ground vibration
                             testing of the Saturn V rocket and the Apollo Spacecraft.
  RPMS Utilization Rate:     “Utilized”
  NASA OIG Assessment:       NASA listed the Structural Dynamic Test Facility as “Utilized” in
                             the RPMS for 2010. However, we determined that NASA did not
                             use the facility in 2010, and in fact was last used in the 1970s for
                             ground vibration testing of the complete Space Shuttle vehicle.
                             NASA plans to mothball the facility some time in 2011 or 2012.




REPORT NO. IG-11-024                                                                                31
                                                                                         APPENDIX B



     Figure B-14. Test Facility 300




     Center Location:            Marshall Space Flight Center, Alabama
     Date Built:                 1964
     Description:                Test Facility 300 is a propulsion thermal dynamic test system for
                                 testing space propulsion systems.
     RPMS Utilization Rate:      “Utilized”
     NASA OIG Assessment:        NASA listed Test Facility 300 as “Utilized” in the RPMS for 2010.
                                 However, we determined that NASA did not use the facility in
                                 2010, and it was last used in 2009 to test eco-sensors and foam for
                                 the Space Shuttle’s external tank. NASA plans to mothball the
                                 facility some time in 2011 or 2012.




32                                                                            REPORT NO. IG-11-024
APPENDIX B



  Figure B-15. Test Facility 500




  Center Location:            Marshall Space Flight Center, Alabama
  Date Built:                 1966
  Description:                Test Facility 500 was constructed to test liquid hydrogen/liquid
                              oxygen turbo pumps for the J-2 engine.
  RPMS Utilization Rate:      “Utilized”
  NASA OIG Assessment:        NASA listed Test Facility 500 as “Utilized” in the RPMS for 2010.
                              However, we determined that NASA only used the facility for a
                              short period in 2010 to perform cryogenic testing. NASA plans to
                              mothball the facility some time in 2011 or 2012.




REPORT NO. IG-11-024                                                                              33
                       APPENDIX C




     MANAGEMENT COMMENTS




34            REPORT NO. IG-11-024
APPENDIX C




REPORT NO. IG-11-024   35
                      APPENDIX C




Enclosure
omitted




        36   REPORT NO. IG-11-024
APPENDIX D




                                                    REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  NASA Advisory Council’s Audit, Finance, and Analysis Committee
  Associate Administrator for Mission Support
     Assistant Administrator for Strategic Infrastructure
  Director, Glenn Research Center
  Director, Kennedy Space Center
  Director, Marshall Space Flight Center

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, NASA Financial Management, Office of Financial Management and
        Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Organization, Efficiency, and Financial Management
  House Committee on Science, Space, and Technology
     Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics




REPORT NO. IG-11-024                                                                 37
Major Contributors to the Report:
   Ridge Bowman, Director, Infrastructure and Facilities Management Directorate
   Michael Brant, Project Manager
   Wayne Emberton, Auditor
   Megan Paxton, Auditor




REPORT NO. IG-11-024                                                              39
                                                                                       AUGUST 4, 2011
                                                                        REPORT No. IG-11-024




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
